Department of Health and Human Services

                    OFFICE OF 

               INSPECTOR GENERAL 



  LAWNDALE CHRISTIAN 

 HEALTH CENTER CLAIMED 

UNALLOWABLE COSTS UNDER 

  RECOVERY ACT GRANTS




  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov. 
                                          




                                            Sheri L. Fulcher 

                                       Regional Inspector General 


                                             September 2012

                                              A-05-11-00057 

                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                         Notices



    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as

 questionable, a recommendation for the disallowance of costs

 incurred or claimed, and any other conclusions and

 recommendations in this report represent the findings and 

 opinions of OAS. Authorized officials of the HHS operating

 divisions will make final determination on these matters.

                                  EXECUTIVE SUMMARY 


BACKGROUND

The Health Centers Consolidation Act of 1996 (P.L. No. 104-299) consolidated the Health
Center Program under section 330 of the Public Health Service Act (42 U.S.C. § 254b). The
Health Center Program provides comprehensive primary health care services to medically
underserved populations through planning and operating grants to health centers. Within the
U.S. Department of Health and Human Services (HHS), the Health Resources and Services
Administration (HRSA) administers the program.

The Health Center Program provides grants to nonprofit private or public entities that serve 

designated medically underserved populations and areas, as well as vulnerable populations of 

migrant and seasonal farm workers, the homeless, and residents of public housing. 


Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), 

enacted February 17, 2009, HRSA received $2.5 billion, $2 billion of which was to expand the 

Health Center Program by serving more patients, stimulating new jobs, and meeting the expected 

increase in demand for primary health care services among the Nation’s uninsured and 

underserved populations. HRSA awarded a number of grants using Recovery Act funding in 

support of the Health Center Program, including Capital Improvement Program (CIP), Facilities 

Investment Program (FIP), Increased Demand for Services (IDS), and New Access Points (NAP) 

grants. 


Lawndale Christian Health Center (Lawndale) is a community-based nonprofit organization 

founded in 1984 and dedicated to improving the health of Lawndale and the neighboring 

communities on Chicago’s West Side. Lawndale provides primary care health services without 

regard to a patient's ability to pay and serves as a community resource for eliminating health 

disparities.


HRSA awarded Lawndale approximately $13.6 million in CIP, FIP, IDS, and NAP grant funds, 

with grant performance periods starting as early as March 1, 2009, and ending as late as 

December 8, 2011. Lawndale claimed approximately $6 million under the grants as of 

March 31, 2011. 


Title 45, part 74, of the Code of Federal Regulations establishes uniform administrative 

requirements governing HHS awards to nonprofit organizations, institutions of higher education, 

hospitals and commercial entities. As a nonprofit organization in receipt of Federal funds, 

Lawndale must comply with Federal cost principles in 2 CFR pt. 230, Cost Principles for Non-

Profit Organizations (Office of Management and Budget Circular A-122), incorporated by 

reference at 45 CFR § 74.27(a). These cost principles require that grant expenditures be 

allowable. The HHS awarding agency may include additional requirements that are considered 

necessary to attain the award’s objectives.



                                                i
OBJECTIVE

Our objective was to determine whether costs claimed by Lawndale were allowable under the
terms of the grant and applicable Federal regulations.

SUMMARY OF FINDINGS

Of the $1,345,926 in costs covered by our review, Lawndale claimed $535,311 that was
allowable under the terms of the grant and applicable Federal regulations. However, Lawndale
claimed Federal grant expenditures totaling $173,897 that were unallowable. We could not
determine the allowability of the remaining costs, totaling $636,718, consisting of certain salary
and wage costs that Lawndale charged against its IDS and NAP grants.

Lawndale did not ensure that its payroll distribution and financial reporting procedures complied
with Federal requirements. Specifically, we determined that:

    	 physician salaries and wages were not adequately supported by personnel activity reports,
       and

    	 expenditures were inadequately documented and improperly allocated to unallowable
       activities.

RECOMMENDATIONS

We recommend that HRSA:
 
    	 ensure that Lawndale refunds $109,720 to the Federal government ($56,160 in
       unallowable charges to the IDS grant plus $85,167 in unallowable charges to the FIP
       grant minus $31,607 in net undercharges to the NAP grant),

    	 either require Lawndale to refund $636,718 to the Federal Government ($611,969 related
       to the IDS grant and $24,749 related to the NAP grant) or work with Lawndale to
       determine whether any of the $636,718 was allowable, and

    	 require Lawndale to take corrective actions to ensure that it maintains personnel activity
       reports for each employee who works on Federal awards.

GRANTEE COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, Lawndale did not concur with the first recommendation.
Lawndale stated that while the costs allocated to the IDS and FIP grants outlined in the audit
report are unallowable; Lawndale incurred additional expenses that were not submitted because
the initial amounts, now deemed unallowable, had exhausted the budget. As a result, Lawndale
stated it has allowable expenses available to replace those questioned through the audit, which

                                                 ii
would render a refund to the Federal government unnecessary. We encourage Lawndale to
submit program expenditures to replace those reported as unallowable.

Lawndale did not concur with the second recommendation to refund $636,718 to the Federal
Government, but does support the recommendation to work with HRSA to justify the expenses
as allowable. Lawndale said it will also commit to ensuring personnel activity reports are
adequate.

Lawndale’s comments are included in their entirety as Appendix A.

HEALTH RESOURCES AND SERVICES ADMINISTRATION COMMENTS

In written comments on our draft report, HRSA concurred with our recommendations. HRSA’s
comments are included in their entirety as Appendix B.




                                             iii
                                                  TABLE OF CONTENTS

                                                                                                                                  Page

INTRODUCTION...................................................................................................................1 


          BACKGROUND ..........................................................................................................1         

              The Health Center Program ..............................................................................1 

              American Recovery and Reinvestment Act Grants ..........................................1 

              Lawndale Christian Health Center....................................................................1 

              Federal Requirements for Grantees ..................................................................2 


          OBJECTIVE, SCOPE, AND METHODOLOGY ........................................................2 

               Objective ...........................................................................................................2        

               Scope.................................................................................................................2       

               Methodology .....................................................................................................2            


FINDINGS AND RECOMMENDATIONS .........................................................................3 


          UNALLOWABLE AND POTENTIALLY UNALLOWABLE
          EXPENDITURES CLAIMED FOR FEDERAL REIMBURSEMENT.......................3 

               Federal Requirements .......................................................................................3             

               Expenditures for the Increased Demand for Services Grant .............................4 

               Expenditures for the Facility Investment Program Grant .................................5 

               Expenditures for the New Access Points Grant................................................5 


          RECOMMENDATIONS ..............................................................................................7                


          GRANTEE COMMENTS AND OFFICE OF INSPECTOR GENERAL 

          RESPONSE...................................................................................................................8   


          HEALTH RESOURCES AND SERVICES ADMINISTRATION COMMENTS......8 


APPENDIXES:

          A: GRANTEE COMMENTS

          B: HEALTH RESOURCES AND SERVICES ADMINISTRATION COMMENTS




                                                                    iv
                                             INTRODUCTION 


BACKGROUND

The Health Center Program

The Health Centers Consolidation Act of 1996 (P.L. No. 104-299) consolidated the Health
Center Program under section 330 of the Public Health Service Act (42 U.S.C. § 254b). The
Health Center Program provides comprehensive primary health care services to medically
underserved populations through planning and operating grants to health centers. Within the
U.S. Department of Health and Human Services (HHS), the Health Resources and Services
Administration (HRSA) administers the program.

The Health Center Program provides grants to nonprofit private or public entities that serve
designated medically underserved populations and areas, as well as vulnerable populations of
migrant and seasonal farm workers, the homeless, and residents of public housing.

American Recovery and Reinvestment Act Grants

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, HRSA received $2.5 billion, $2 billion of which was to expand the
Health Center Program by serving more patients, stimulating new jobs, and meeting the expected
increase in demand for primary health care services among the Nation’s uninsured and
underserved populations. HRSA awarded a number of grants using Recovery Act funding in
support of the Health Center Program, including Capital Improvement Program (CIP), Facilities
Investment Program (FIP), Increased Demand for Services (IDS), and New Access Points (NAP)
grants.

Lawndale Christian Health Center

Lawndale Christian Health Center (Lawndale) is a community-based nonprofit organization,
founded in 1984 and dedicated to improving the health of Lawndale and the neighboring
communities on Chicago’s West Side. Lawndale provides primary care health services without
regard to a patient's ability to pay and serves as a community resource for eliminating health
disparities.

HRSA awarded Lawndale $13,617,499 in CIP, FIP, IDS, and NAP grant funds, with grant
performance periods starting as early as March 1, 2009, and ending as late as December 8, 2011.
Lawndale claimed $6,035,402 under the grants as of March 31, 2011.1




1
  Specifically, Lawndale claimed $1,649,370 under the CIP grant, $2,760,744 under the FIP grant, $668,129 under
the IDS grant, and $957,159 under the NAP grant during this period.
                                                       1

Federal Requirements for Grantees

Title 45, part 74, of the Code of Federal Regulations establishes uniform administrative
requirements governing HHS awards to nonprofit organizations, institutions of higher education,
hospitals and commercial entities. As a nonprofit organization in receipt of Federal funds,
Lawndale must comply with Federal cost principles in 2 CFR pt. 230, Cost Principles for Non-
Profit Organizations (Office of Management and Budget Circular A-122), incorporated by
reference at 45 CFR § 74.27(a). These cost principles require that grant expenditures be
allowable. The HHS awarding agency may include additional requirements that are considered
necessary to attain the award’s objectives.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether costs claimed by Lawndale were allowable under the
terms of the grant and applicable Federal regulations.

Scope

We performed this review in response to a request from HRSA. We limited our review of
internal controls to those that pertained directly to our objective. We limited our review to
$1,345,9262 in selected costs that Lawndale claimed for these grants during that period.

We performed fieldwork at Lawndale’s administrative offices in Chicago, Illinois, in April 2011.

Methodology

To accomplish our objective, we:

       reviewed relevant Federal laws, regulations, Notices of Awards and guidance;

       identified expended funds in Lawndale’s accounting records as of March 31, 2011;

       reconciled grant expenditures recorded in the accounting records to quarterly Recovery
        Act Section 1512 reports;3

       compared budgeted and actual expenditures to determine whether Lawndale should have
        requested prior approval to rebudget costs;

2
 Specifically, we judgmentally sampled $300,453 under the CIP grant, $413,816 under the FIP grant, $142,563
under the IDS grant, and $489,094 under the NAP grant.
3
  The purpose of quarterly Recovery Act Section 1512 report is for recipients to report total Recovery Act funds
invoiced and received.
                                                         2

    	 reconciled grant drawdowns to grant expenditures; and

    	 reviewed selected costs claimed under the grant for allowability.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                             FINDINGS AND RECOMMENDATIONS

Of the $1,345,926 in costs covered by our review, Lawndale claimed $535,311 that was
allowable under the terms of the grant and applicable Federal regulations. However, Lawndale
claimed Federal grant expenditures totaling $173,897 that were unallowable.4 We could not
determine the allowability of the remaining costs, totaling $636,718, consisting of certain salary
and wage costs that Lawndale charged against its IDS and NAP grants.

Lawndale did not ensure that its payroll distribution and financial reporting procedures complied
with Federal requirements. Specifically, we determined that:

    	 physician salaries and wages were not adequately supported by personnel activity reports,
       and

    	 expenditures were inadequately documented and improperly allocated to unallowable
       activities.

UNALLOWABLE AND POTENTIALLY UNALLOWABLE EXPENDITURES
CLAIMED FOR FEDERAL REIMBURSEMENT

Federal Requirements

Pursuant to 2 CFR pt. 230, Appendix A, § A.2, costs must be adequately documented to be
allowable under an award. Pursuant to 2 CFR pt. 230, Appendix B, § 8.m(1), the distribution of
salaries and wages must be supported by personnel activity reports, unless the cognizant agency
(the federal agency responsible for negotiating and approving indirect cost rates) has approved a
substitute system in writing. The activity reports maintained by nonprofit organizations must
meet the following standards:

           reflect an after-the-fact distribution of the actual activity of each employee,

4
 Although Lawndale claimed $173,897 in unallowable expenditures, we determined that it also undercharged its
NAP grant by $64,177 (as described below). Thus, our related recommendation reflects a net unallowable amount
of $109,720.
                                                      3

        	 account for the total activity for which each employee is compensated,

        	 be signed by the employee or by a responsible supervisory official having firsthand
           knowledge of the activities performed, and

        	 be prepared at least monthly and coincide with one or more pay periods.

Pursuant to 45 CFR § 74.21(b), grantees are required to maintain financial management systems
that provide for, among other things:

        	 Accurate, current, and complete disclosure of the financial results of each
           HHS-sponsored project or program in accordance with the reporting
           requirements set forth in 74.52.

        	 Records that identify adequately the source and application of funds for HHS-
           sponsored activities.

        	 Comparison of outlays with budgeted amounts for each award.

        	 Written procedures for determining the reasonableness, allocability, and
           allowability of costs in accordance with the provisions of the applicable
           Federal cost principles and the terms and conditions of the award.

Pursuant to 2 CFR pt. 230, Appendix A, § A.2.a, to be allowable under an award, grantee costs
must be reasonable for the performance of the award and be allocable thereto under these
principles. Pursuant to 2 CFR pt. 230, Appendix A, § A.1, the composition of total costs of an
award is the sum of the allowable direct and the allocable indirect costs, less any applicable
credits.

Expenditures for the Increased Demand for Services Grant

Grant Requirements

Pursuant to HRSA award guidance, the project period for all IDS grants is March 27, 2009,
through March 26, 2011, and IDS funds cannot be used to support any costs incurred prior to
receipt of an IDS notice of grant award.5




5
 HRSA, “Increased Demand for Services: Frequently Asked Questions,” Question #3. Available online at
http://bphc.hrsa.gov/recovery/faqs.html. Accessed on June 12, 2012.
                                                     4

Salary and Wage Costs

Lawndale did not maintain personnel activity reports to support salary and wage costs that it
charged to the IDS grant. Therefore, we could not determine whether $611,969 in salaries and
wages that Lawndale charged to the IDS grant were allowable.

Lawndale did not have procedures to ensure that its payroll distribution process (1) resulted in an
allocation that reflected actual work performed by staff at least on a monthly basis and
(2) identified and segregated non-Federal activity.

Preaward Costs

Lawndale incurred salary and wage costs totaling $56,160 prior to the receipt of the notice of
grant award (March 27, 2009). The costs were for service dates of February 17, 2009, through
March 26, 2009; therefore, these costs were unallowable.

Expenditures for the Facility Investment Program Grant

Grant Requirements

HRSA’s “FIP Application Guidance,” issued June 19, 2009, and updated July 29, 2009, states
that costs related to land or facility purchases are not eligible for reimbursement.

Allocability of Program Funds

Lawndale improperly charged land acquisition costs of $154,409 ($84,925 Federal share6) to the
FIP grant. These costs are unallowable under the terms of the grant.

Duplicate Charges

In September 2010, Lawndale received and paid an invoice totaling $439 for garbage services as
part of the FIP grant. Two weeks later, Lawndale received and paid another invoice totaling
$452, which included the amount from the prior invoice. The first payment was not posted to
Lawndale’s account prior to the delivery of the second invoice. This resulted in the double
payment of $439 ($242 Federal share) that was improperly charged to the FIP grant.

Expenditures for the New Access Points Grant

Grant Requirements

The HRSA notice of grant award for the NAP grant, dated February 26, 2009, states that the
purpose of the grant is to support the establishment of new services delivery sites. Additionally,

6
 The Federal government pays 55 percent of FIP grant expenditures (Federal share) in accordance with the notice of
grant award.
                                                        5

if Federal funds are to be used to pay for equipment, a list of the items must be submitted to
HRSA’s Division of Grants Management Operations within 30 days of receipt of the notice of
grant award. If the list is not provided, all equipment purchases must be paid for with non-
Federal funds.

Salary and Wage Costs

We found that Lawndale undercharged a net total of $59,587 to the NAP grant. This amount
consisted of the following.

   	 Lawndale claimed and charged to the NAP grant, wages greater than amounts supported
      by accounting and payroll records for two employees. In January 2011, Lawndale
      claimed $12,726 in wages but accounting and payroll records supported only $8,729 in
      wages. This difference represents an overcharge of $3,997. The discrepancy was due to
      a clerical error in recording December 2010 wage amounts.

   	 Lawndale claimed wages less than amounts supported by accounting and payroll records
      for the same two employees. In July 2010, Lawndale claimed $5,713 in wages for one
      employee where accounting and payroll records supported $6,664 in wages. This
      difference represents an undercharge of $951. During June and July of 2010, Lawndale
      claimed $1,147 in wages for the second employee but accounting and payroll records
      supported $2,275 in wages, resulting in an undercharge of $1,128. This difference was
      due to the exclusion of both employees’ bonuses from the grant charges. The bonuses
      were performance based and met Federal requirements regarding allowability.

   	 Lawndale prepared spreadsheets that covered our audit period, March 2009 to February
      2011, to calculate the monthly amounts charged to the NAP grant. The spreadsheets
      correctly reported incurred cost of $956,566. The total incurred cost submitted to HRSA
      was $957,159. This resulted in an overcharge of $593 to the NAP grant.

   	 Lawndale claimed FICA, workers’ compensation, and pension expenses related to the
      NAP grant that were less than the amounts supported by its accounting records.
      Specifically, Lawndale’s accounting records showed that it had incurred $79,171 in
      allowable expenses, but that it only charged $21,125 to the grant. The difference
      represents an undercharge of $58,046. Lawndale did not claim the full amount that it was
      entitled to claim because it calculated benefit amounts based on total salaries for one
      group of employees instead of total salaries for the three groups covered for the period of
      July 2009 through February 2011.

   	 Lawndale claimed health insurance expenses related to the NAP grant for amounts less
      than supporting accounting records. Lawndale claimed $67,633 of the $71,685 in
      allowable expenses, resulting in an undercharge of $4,052. This difference was due to
      Lawndale miscalculating health insurance amounts for the periods of March 2009
      through June 2009 and November 2009 through December 2009.

                                               6

We could not determine the allowability of an additional $24,749 in salaries and wages.
Specifically:

    	 During December 2010 and January 2011, Lawndale charged $305 in wage costs to the
       NAP grant for which there were no salary records documenting that the employee
       worked on the grant during the 2-month period.

    	 Lawndale charged $24,444 in salaries and wages for two administrative employees to the
       NAP grant during the period of March 2009 through February 2011 based on estimated
       percentages of effort rather than on documentation of the actual work performed on the
       grant.

Because Lawndale did not maintain documentation supporting $24,749 in salary and wage costs
that it charged to the NAP grant, we could not determine whether the charges were allowable.

Equipment Costs

Lawndale did not submit a list of equipment to the Division of Grants Management Operations
within 30 days of receipt of the notice of grant award as required. Therefore, the associated
charges of $26,906 are unallowable.

Allocability of Program Funds

Lawndale received an invoice for phone services totaling $1,678 which covered multiple
locations including a new access point/service delivery site. Phone services related to new
access points were allowable under the NAP grant. Not all locations covered under the invoice
were new access points; however, the entire invoice was charged to the NAP grant. Of that
amount, $1,074 was related to established access points and was therefore unallowable.

RECOMMENDATIONS

We recommend that HRSA:
 
    	 ensure that Lawndale refunds $109,720 to the Federal government ($56,160 in
       unallowable charges to the IDS grant plus $85,167 in unallowable charges to the FIP
       grant minus $31,607 in net undercharges to the NAP grant),

    	 either require Lawndale to refund $636,718 to the Federal Government ($611,969 related
       to the IDS grant and $24,749 related to the NAP grant) or work with Lawndale to
       determine whether any of the $636,718 was allowable, and

    	 require Lawndale to take corrective actions to ensure that it maintains personnel activity
       reports for each employee who works on Federal awards.

                                                7

GRANTEE COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, Lawndale did not concur with the first recommendation.
Lawndale stated that while the costs allocated to the IDS and FIP grants outlined in the audit
report are unallowable; Lawndale incurred additional expenses that were not submitted because
the initial amounts, now deemed unallowable, had exhausted the budget. As a result, Lawndale
stated it has allowable expenses available to replace those questioned through the audit, which
would render a refund to the Federal government unnecessary. We encourage Lawndale to
submit program expenditures to replace those reported as unallowable.

Lawndale did not concur with the second recommendation to refund $636,718 to the Federal
Government, but does support the recommendation to work with HRSA to justify the expenses
as allowable. Lawndale said it will also commit to ensuring personnel activity reports are
adequate.

Lawndale’s comments are included in their entirety as Appendix A.

HEALTH RESOURCES AND SERVICES ADMINISTRATION COMMENTS

In written comments on our draft report, HRSA concurred with our recommendations. HRSA’s
comments are included in their entirety as Appendix B.




                                              8

APPENDIXES 

                                                                                                            Page 1 of 5


                      APPENDIX A: GRANTEE COMMENTS
                                                                                          LAV'>:'NOAl..r:. C"H-RiST) ,A,N
                                                                                          HEALTH CENTER




June 19, 2012



Ms. Sheri L Fulcher
US Department of Health and Human Services
Office of Inspecto r General
Office of Audit Services, Region V
233 N Michigan Ave, Suite 1360
Chicago, IL 60G01



Ms. Fulcher,

On behalf of th e board, staff and patients of Lawndale Christian Health Center, thank you for an
opportunity to comment on the d raft report entitled "lawndale Christian Health Center Claimed
Unallowable Costs Under Recovery Act Grants" (A-OS-l l-000S7). Afte r rev iewing the draft report. we
did. in fact, find several items worthy of commenta ry . The attached document outlin es the items of
note.

We appreciate the opportunity to provide feedback .



Sincerely.




Bruce E Miller, CEO




 B72.5!HL3 !HHl         3860 W est Ogden Av enue Chic8\jO, IL 60623           I   ww w.iiJwn dllle.org
                                                                                                                     Page 2 of5




                                      lawndale Christian Health Center's 

                                                Comments on the 

                Department of Health and Human Services - Office of Inspector General's 

                                       Draft Audit Report A -05-11-00057 

      "Lawndale
      "La wndale Christian Health Center Claimed Unallowable Costs Under Recovery Act Grants" 




The following are comme nts from Lawndale Christian Health Center (Lawndale) in response to t he
Department of He
              Heaalth and Human Services, Office of In
                                                    Inspecto
                                                       spectorr General's (OIG) draft audit repo rt A-05­
11-00057 entitled "L
                  "Lawndale
                     awndale Christian Health Center Clai med Unallowable Costs Un
                                                      laimed                    Under
                                                                                   der Recovery Act
Grants."


Recommendation 1:


HRSA should ensure that La
                        Lawnd
                           wndale
                              ale refunds $109
                                          $109,,720 to the Federal government ($56, 16
                                                                                    160
                                                                                      0 in
unallowable charges to the IDS grant plus $85,167 in unallowable charges to the FIP grant minus
$31,607 in net undercharges to the NAP grant).


Response 1:


Lawndale
La wndale strongly disagrees with the recommenda
                                      recommendation
                                                 tion to refund $109,720 to the Federal government
on the basis that whi le the costs al loca ted to the IDS ($56,160) and FIP ($85,167) grants outl i ned in the
aud it report are, in fact, unallowable, Lawnda
                                         Lawndalle incu rre
                                                        rredd addit
                                                              additiional, allowab
                                                                           allowablle expe n ses rel ated to bo
                                                                                                             both
                                                                                                                th
the I DS and FIP grants that were not subm
                                      submit
                                           itted
                                             ted because the in
                                                             iniit i al amounts now deemed unallowable
had exhausted t he budget.


Lawnd a le has reviewed expenditures for each project and out
                                                          outll ined additional, allowable expenses for
IDS ($116,802 tota l ) and FIP ($103,576 total) wh i ch would fully satisfy the grant requirements for each
project.. Lawn
project        da le is prepa red to submit the itemized li st of expenses upon request and asks that HRSA
          Lawnda
review the remainder of the allowable expense
                                      expensess for IDS ($56,160) and FIP ($85,167)
                                                                          ($85,167),, the result of which
would render a refund to the Fed eral Government of $109,720 unnecessary.


Recommendation 2:
               2:..


HRSA should either require Lawndale to refu nd $636,718 to the Federal Government ($611,969 re lat ed
to the ID
       IDSS grant and $24,749 re
                              rela
                                 lated
                                   ted to the NAP grant
                                                  grant)) or wo
                                                             worr k w ith La wndale to determine whether
anyy of the $636,718 was allowabl e.
an




                                                         2
                                                                                                             Page 3 of 5




Response 2:


Lawndale strongly disagrees with the recommended option to refund $636,718 to the Federal
Government on the basis that the aforementioned expenses are, in fact, allowable. However, Lawndale
supports the recommended option for HRSA to review the methodology used by Lawndale to justify the
expenses as fully allowable and adequate ly documented pursuant to 2 CFR pt 230, Appe ndix A § A.2.


As a federally qualified health center (FQHC) designated under § 330 of the Public Health Service (PHS)
Act, Lawndale produces an annual cost report for timely submission at both the State level (Medicaid
Cost Report) and the Federal level (Medicare Cost Report). The audited reports capture in aggregate all
allowable costs associated with a primary care visit, disallowing expenses related to administration,
fund raising, and other non-covered services. The result is a per-patient-visit expenditure amount known
as the "encounter rate" which fluctuates each year. Lawndale used the corresponding encounter rate
during the grant period to aggregate costs associated with the discreetly identifiable patients who
qualified for IDS and NAP programs. For example, the total number of new patient visits attributable to
IDS for the quarter October 2010 through December 2010 was 416. That year the encounter rate was
$125. Resultantly, Lawndale allocated $52,000 of expense for the quarterly period.


Given the institution and acceptance of the cost reporting methodology by departments at both the
State and Federal Government, Lawndale asserts that cost was adequately documented and allowable
pursuant to 2 CFR pt. 230, Appendix A § A.2 for both IDS and NAP grants. Furthermore, any cost
methodology t hat seeks to differentiate t hrough payroll reports the amount of minutes per-day, per­
employee for each IDS-qualifying pat ient is unreasonab le and wou ld resu lt in inflated and unnecessary
administrative expense. It should also be noted that no patients identified by Lawndale as qualifying for
the IDS and NAP programs were found to be incorrectly classified as such by t he OIG auditors.


OIG correctly cites that pursuant to 2 CFR pt 230, Appendix B, § 8.m(1 ), the distribution of salaries and
wages must be supported by personnel activity reports and that the activity reports maintained by
nonprofit organizations must:


    ..   reflect an after-the-fact distribution of the actual activity of each employee:
    •    account for the total activity for wh ich each employee is compensated; 

    ,.   be signed by the employee or by a responsibl e supervisory official ha ving firs thand knowledge of 

         the activities performed and; 

    ..   be prepared at least monthly and coincide with one    01"   more pay periods. 



Through a payroll process which requires submission of timecards for all employees bi-weekly, Lawndale
satisfied all four requirements above during the grant periods for both IDS and NAP. Every employee in
the organization (i.e. physicians, medical assistants, phone operators, etc.) provide a bi-weekly record
(times heet) supporting their payroll expense. The integrity of the data and the payroll process is
revie wed and tested annually by our independent auditor performing the A133 audit, as well as the


                                                      3
                                                                                                                 Page 4 of5




workers compensation insurance carrier's audit division and state and local granting agencies (e.g. City
of Chicago) who deploy the ir own auditors for separate grant awards.


Lawndale requests that HRSA provide more detailed guidance on cost reporting prior to the comp letion
of any future Federal awards.


Recommendation 3:


HRSA should require Lawndale to monitor the budget status for each grant to ensure award limitations
are not to exceeded or request awarding agency prior approval to exceed the budgeted amounts.


Response 3:


Lawndale partially agrees with this recommendation on the basis that monitoring budget status does fall
under the auspices of proper fiscal stewardship for all gran t awards and should, therefore, be
conducted. However, regarding the audit report section (Lack of Prior Approval - Budget Overages, p. 7)
to which this recommendation relates, La wndale strongly disagrees with OIG's assertion that a prior
approval request was needed for the line item exceeding the budgeted amount (" Other architectural
and engineering fees" within the FIP grant, amounting to $4,601 in overages, according to OIG).


Pursuant to the FIP notice of grant award (under Standard Terms, section 4, p. 7), Lawndale must submit
to HRSA for prior approval of significant re-b udget ing of project costs. It states, "Significant rebudgeting
occurs when, under a grant whe re t he Federal share exceeds $100,000, cumu lative transfers among
direct cost budget categories for the current budget period exceeds 25 perce nt of the total budget...QL
$250,000, whichever is less" (emphasis mine). Therefore the re-budgeting threshold at which Lawndale
was required to seek prior approval was not $100,000, but $250,000 - a threshold that was not met
under the "Other architectural and engineering fees" account classification ($85,000 budgeted,
$189,600 expended).l


Recommendation 4:


HSRA should require Lawndale to take corrective actions to ensure that it maintains personnel ac tivity
reports for each employee w ho works on Federal awards.


Response 4;


Again, La wndal e partially agrees with the above recommendation on the basis that it is advisable to
maintain adequate personnel reports for all employees compensated through Federal awards. However,
Lawndale strongly feels that the procedures currently in place (i.e. the annual submission of two


1 Office of Inspector Genera! Note - We are no longer making the recommendation as the tentative
finding has been deleted from our report
                                                       4
                                                                                                           Page 5 of 5




separate cos t repo rts
                    rts,, an independent A133 audit, and numerous state and local program audits) have
the capacity to adequately ensure proper fiscal stewardship for Federal awards. Lawnda le will commit to
the more thorough execution of quarterly expense reports for future Federal awards.




                                                   5
                                                                                          Page 1 of2


APPENDIX B: HEALTH RESOURCES AND SERVICES ADMINISTRATION 

                       COMMENTS 





      TO:          Inspector General

      FROM:        Admi nistrator

      SUBJECT:     OIG Draft Report: "Lawndale C hristian Health Center Claimed
                   Unallowable Costs Under Recovery Act Grants" (/\.-05-11 -00057)

     Attached is the Health Resources and Servi ces Administration's (HRSA) response to
     the OfG's drafl report, "Lawndale Health Center Claimed Unallowable Costs
     Under Recovery Act G rants" (/\-05-11 -00057). ! f you have any questions,
     please contact Sandy Seaton in HRSA' s Office of Federal Assistance Management
     at (30 I) 443-2432.




                                                Mary K. \\lakefield, Ph.D., R.N.

     Attachment
                                                                                                     Page 2 of2




  Health Resources and Sen'kes Admi nis tration's Comments on the OIG Draft Report­ 

         "Lawndale Christian Health Center Claimed Unallowable Costs Under 

                            Recovery Act Grants" (A-05-11-00057) 


The Health Resources and Services Adm inistration (UR SA) appreciates the OPPo11unity to
respond £0 the above draft report. HRSA's response to the Office of Inspector General (OIG)
draft reeommendations are as follows:

OIG Recommenda tion to !IRSA :

We recommend that HRSA ensure that Lawndale refunds $109,720 to the Federal (Jovermnenl
($56,1 60 in unallowable charges to the IDS grant plus S85 , 167 in unallowable charges to the FIP
grant minus 531,607 in net undercharges to the NAP grant).

H RSA Response:

HRSA concurs with the OIG recommendation and will work with the grantee to detennine irallY
American Recovery and Reinvestment Act (ARRA} grant funds need to be refunded.

OIG Reco mmendation to HRSA:

We recommend that HRSA either require Lawndal e to refimd $636,7! 8 to the Federa l
Go vernment (56]l ,969 related to the rDS grant and $24,749 related to the NAP grant) or work
with Lawndaic to determine whether any oftlle S636,71 8 was allowable.

HRS.'\.. Response:

HRSA concurs with the OIG recommendation and '""ill work w ith the grantee to determine if any
ARRA grant funds need to be rct'i.mded.

OIG Recommendation to URSA:

We recommend that HRSA require Lawndale to take corrective actions to ensure that it
maintains personnel acti vity rcports for each emp loyee who works on Federal awards.

URSA Response:

IIRSA concurs with the OIG recommendation and wi ll work wi th the grantee to ensure thal it
maintains perSO!l.i'let activi ty reports for each employee Who works on federal awa,ds_
